WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 19-113

William F. Holdner y, Katy Coba, et al.

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
{Z Please enter my appearance as Counsel of Record for all respondents.

(i There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if

your name Ce a ee
Signatu x C4
_ th? /
Date: 7 “py

Benjamin Gutman
IA My. O Ms. OD Mrs. O Miss
Oregon Department of Justice

 

(Type or print) Name

Firm.
Address 1162 Court Street

City & State Salem, Oregon rip 97301-4096
Phone (503) 378-4402

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION GONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: William F. Holdner, Pro Se Petitioner

|
|
:
|
{
!
/
/
/

 

 
